                                    SOCIAL SECURITY
MEMORANDUM
Date:   July 7, 2005                                                        Refer To:

To:     Carl L. Rabun
        Regional Commissioner
         Seattle

From:   Inspector General

Subject: Administrative Costs Claimed by the Alaska Disability Determination Services
        (A-09-05-15025)


        The attached final report presents the results of our audit. Our objectives were to
        evaluate the Alaska Disability Determination Services’ (AK-DDS) internal controls over
        the accounting and reporting of administrative costs, determine whether costs claimed
        by the AK-DDS were allowable and funds were properly drawn, and assess limited
        areas of the general security controls environment.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have
        your staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                        S
                                                        Patrick P. O’Carroll, Jr.

        Attachment

        cc:
        Greg O’Claray, Commissioner, Alaska Department of Labor and Workforce
        Development
        Sandra Kelley, Chief Administrator, Alaska Disability Determination Services
        Lenore R. Carlson
        Jeff Hild
        Candace Skurnik
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



  ADMINISTRATIVE COSTS CLAIMED
    BY THE ALASKA DISABILITY
    DETERMINATION SERVICES

    July 2005    A-09-05-15025




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary
OBJECTIVE
The objectives of our audit were to (1) evaluate the Alaska Disability Determination
Services’ (AK-DDS) internal controls over the accounting and reporting of administrative
costs, (2) determine whether costs claimed by the AK-DDS were allowable and funds
were properly drawn, and (3) assess limited areas of the general security controls
environment.

BACKGROUND
Disability determinations under the Social Security Administration’s (SSA) Disability
Insurance and Supplemental Security Income programs are performed by disability
determination services (DDS) in each State or other responsible jurisdiction, in
accordance with Federal regulations. Each DDS is responsible for determining
claimants’ disabilities and ensuring adequate evidence is available to support its
determinations. To assist in making proper disability determinations, each DDS is
authorized to purchase medical examinations, x-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians
or other treating sources. SSA reimburses the DDS for 100 percent of allowable
expenditures.

RESULTS OF REVIEW
Generally, AK-DDS had adequate controls over the accounting and reporting of
administrative costs. Also, AK-DDS had adequate controls over its general security
controls environment. However, we estimate that AK-DDS could have saved up to
about $1.3 million in medical costs for Fiscal Years (FY) 2001 through 2003 had a
fee schedule been established. In addition, AK-DDS claimed $177,092 of unallowable
costs for FYs 2001 through 2003. This occurred because AK-DDS improperly paid
for missed consultative examinations and Medicaid expenditures that did not benefit
SSA’s programs. Furthermore, AK-DDS charged $21,821 in medical and all other
nonpersonnel costs to the incorrect FY.

RECOMMENDATIONS

We recommend that SSA (1) ensure AK-DDS establishes a fee schedule for medical
services, (2) work with AK-DDS to evaluate the reasonableness of its payment rates,
(3) determine whether it was necessary for AK-DDS to pay medical providers for
$120,920 in missed consultative examinations, (4) instruct the Alaska Division of
Vocational Rehabilitation (AK-DVR) to refund $56,172 in unallowable costs for the
Medicaid program, and (5) instruct AK-DVR to implement procedures to ensure that
expenditures are reported in the proper FY.


Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)                          i
SSA COMMENTS
SSA agreed with four of our five recommendations. SSA disagreed with our
recommendation to recover $56,172 in unallowable costs for disability determinations
performed on behalf of the Medicaid program. SSA believed it generally benefited from
the reimbursement arrangement and should not request a refund because (1) under
the reimbursable services agreement (RSA), AK-DVR used a $75,000 salary when the
actual average adjudicator salary was $64,000 and (2) the non-Federal workload did not
require the services of a full-time adjudicator. SSA believed these factors would offset
any potential finding of unallowable costs. Finally, SSA noted that since AK-DVR only
showed personnel costs on its quarterly reports, it would instruct AK-DVR to provide a
breakdown of the Medicaid costs to reflect personnel, indirect, medical, and other costs.
See Appendix D for the text of SSA’s comments.

STATE AGENCY COMMENTS
The Alaska Department of Labor and Workforce Development (AK-DOLWD)
agreed with four of our five recommendations. AK-DOLWD disagreed with our
recommendation to recover $56,172 in unallowable costs for disability determinations
performed on behalf of the Medicaid program. AK-DOLWD stated that it should have
used an average salary of $64,000 for an adjudicator rather than the highest salary of
$75,000. In addition, AK-DOLWD stated that it had incorrectly included nonpersonnel
costs with the Medicaid billings for personnel costs and did not charge the full amount
of State and departmental indirect costs during our audit period. See Appendix E for
the text of AK-DOLWD’s comments.

OIG RESPONSE
The RSA, as applied during our audit period, stated the annual salary for one
adjudicator would be allocated to the Medicaid program. During FYs 2001 through
2003, AK-DVR charged Medicaid costs based on an estimated salary of $75,000 per
year. In addition, we found no evidence that nonpersonnel costs were included with
personnel costs or had otherwise been charged to the Medicaid program. Finally, the
information supporting AK-DOLWD’s comment that it did not charge the full amount of
State and departmental indirect costs was not made available to us during our audit.
Therefore, we believe SSA should evaluate the sufficiency of this information to
determine whether it should request a refund of any unallowable costs for the Medicaid
program. We are pleased that SSA is taking corrective action to ensure AK-DVR
provides a breakdown of all Medicaid costs in the future.




Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)                            ii
                                                          Table of Contents
                                                                                                                   Page

INTRODUCTION............................................................................................................. 1

RESULTS OF REVIEW .................................................................................................. 3

Medical Fee Schedule..................................................................................................... 3

Missed Consultative Examinations.................................................................................. 4

Expenditures for Medicaid Program ................................................................................ 5

Incorrect Fiscal Year Payments ...................................................................................... 6

CONCLUSIONS AND RECOMMENDATIONS............................................................... 8

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Sampling Methodology

APPENDIX C – Alaska Disability Determination Services Reported and Allowed Costs

APPENDIX D – SSA Comments

APPENDIX E – State Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments




Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)
                                                            Introduction
OBJECTIVE
The objectives of our audit were to (1) evaluate the Alaska Disability Determination
Services’ (AK-DDS) internal controls over the accounting and reporting of administrative
costs, (2) determine whether costs claimed by the AK-DDS were allowable and funds
were properly drawn, and (3) assess limited areas of the general security controls
environment.

BACKGROUND
The Disability Insurance program was established in 1954 under Title II of the Social
Security Act (Act). The Disability Insurance program provides benefits to wage earners
and their families in the event the wage earner becomes disabled. In 1972, Congress
enacted the Supplemental Security Income program under Title XVI of the Act.
The Supplemental Security Income program provides benefits to financially needy
individuals who are aged, blind, or disabled.

The Social Security Administration (SSA) is responsible for implementing policies for
the development of disability claims under the Disability Insurance and Supplemental
Security Income programs. Disability determinations under both Disability Insurance
and Supplemental Security Income are performed by disability determination services
(DDS) in each State or other responsible jurisdiction, in accordance with Federal
regulations.1 In carrying out its obligation, each DDS is responsible for determining
claimants’ disabilities and ensuring adequate evidence is available to support its
determinations. To assist in making proper disability determinations, each DDS is
authorized to purchase medical examinations, x-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians
or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of
the Treasury’s (Treasury) Automated Standard Application for Payments system to pay
for program expenditures. Funds drawn down must comply with Federal regulations2
and intergovernmental agreements entered into by Treasury and States under the
Cash Management Improvement Act of 1990.3 An advance or reimbursement for costs
under the program must comply with Office of Management and Budget Circular A-87,
Cost Principles for State, Local, and Indian Tribal Governments. At the end of each

1
    20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
2
    31 C.F.R. § 205.1 et seq.
3
    Pub. L. No. 101-453; 31 U.S.C. § 6501.


Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)                           1
quarter of the fiscal year (FY), each DDS submits a Form SSA-4513, State Agency
Report of Obligations for SSA Disability Programs, to account for program
disbursements and unliquidated obligations.

AK-DDS is a component within the Alaska Division of Vocational Rehabilitation
(AK-DVR). AK-DVR is a division within the Alaska Department of Labor and Workforce
Development (AK-DOLWD). For FYs 2001 through 2003, AK-DDS employed about
29 employees and claimed total disbursements of $11.95 million. The following chart
provides an overview of the organizational structure of AK-DDS.



         Department of Labor and Workforce Development

                                                           Commissioner




     Administrative    Division of     Division of Labor   Alaska Labor       Employment       Division of     Division of
       Services        Vocational       Standards and        Relations         Security         Workers'       Business
       Division       Rehabilitation        Safety            Agency           Division       Compensation    Partnerships




                      Americans with      Assistive                            Disability     Independent
     Administration                                        Client Services                                   Special Projects
                       Disabilities      Technology                          Determination       Living


                                                                          Alaska DDS Operations




Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)                                                                  2
                                              Results of Review
Generally, AK-DDS had adequate controls over the accounting and reporting of
administrative costs. Also, AK-DDS had adequate controls over its general security
controls environment. However, we estimate that AK-DDS could have saved up to
about $1.3 million in medical costs for FYs 2001 through 2003 had a fee schedule been
established. In addition, AK-DDS claimed $177,092 of unallowable costs for FYs 2001
through 2003. This occurred because AK-DDS improperly paid for missed consultative
examinations (CE) and Medicaid expenditures that did not benefit SSA’s programs.
Furthermore, AK-DDS charged $21,821 in medical and all other nonpersonnel costs
to the incorrect FY.

MEDICAL FEE SCHEDULE
AK-DDS did not establish a fee schedule to determine the maximum payment rates
for medical services. Because of the limited number of medical providers in the State,
AK-DVR believed a fee schedule was not necessary. In addition, AK-DDS believed a
fee schedule could reduce the availability of medical providers. Without a fee schedule,
SSA and AK-DDS may be unable to ensure the payment rates for medical services are
consistently applied. If payment rates were limited to the highest rate paid by Federal
or other agencies in the State for the same or similar types of service, we estimate
that AK-DDS could have saved up to about $1.3 million in medical costs for FYs 2001
through 2003.

SSA’s procedures state that the DDS will use a fee schedule to reimburse medical
providers for their services. Authorized payments represent the lower of (1) the
provider’s usual and customary charge or (2) the maximum allowable charge under
the fee schedule. The DDS must submit to the SSA Regional Office a copy of the fee
schedule or any changes to an existing fee schedule.4 The DDS must also review its
records annually with the SSA Regional Office to determine whether the fee schedule
is adequate and cost-effective.5

Federal regulations require that each State determine the payment rates for medical
or other services necessary to make disability determinations. The rates may not
exceed the highest rate paid by Federal or other agencies in the State for the same
or similar types of service. The State must maintain documentation to support the
payment rates used.6



4
    Program Operations Manual System (POMS), section DI 39545.210.
5
    POMS, section DI 39545.410.
6
    20 C.F.R. §§ 404.1624 and 416.1024.


Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)                         3
Although AK-DDS paid the usual and customary rates to its medical providers, this did
not alleviate the need to establish a fee schedule to determine the maximum payment
rates and ensure they were reasonable. In May 2004, the SSA Regional Office
conducted an on-site review of DDS operations in Alaska. Based on the results of its
review, the Regional Office recommended that AK-DDS consider establishing a fee
schedule and rely on other agencies, such as AK-DVR and Medicare, for payment caps.

During our review, we were unable to obtain medical fee schedules from other State
agencies because these schedules were classified as proprietary information. For
comparison purposes, we matched the rates Medicare paid with the fees AK-DDS paid
for its medical services. As depicted in the table below, AK-DDS paid $2,831,304 for
12,469 medical services during FYs 2001 through 2003. However, using the applicable
Medicare rates, the maximum payments for these medical services were limited to
$1,511,765. Therefore, if a fee schedule had been established and payment rates were
limited to the highest allowable rates, we estimate that AK-DDS could have saved up to
$1,319,539 in medical costs for FYs 2001 through 2003.

                          Medical               Actual                Maximum          Potential
        FY                Services             Payments               Payments       Cost Savings
       2001                 4,866             $1,021,831               $578,793         $443,038
       2002                 4,594              1,045,800                550,077          495,723
       2003                 3,009                763,673                382,895          380,778
       Total               12,469             $2,831,304             $1,511,765       $1,319,539

MISSED CONSULTATIVE EXAMINATIONS
AK-DDS incorrectly paid fees for missed CE appointments. Although such fees are
ineligible for reimbursement, SSA’s Office of Disability Determinations7 may authorize
an exemption to its no-pay policy for missed CEs. However, we found the SSA
Regional Office did not obtain the exemption as required. As a result, SSA reimbursed
AK-DVR for $120,920 of unallowable costs for FYs 2001 through 2003.

In response to a prior audit,8 SSA adopted a no-pay policy for missed CE appointments.
In April 2000, SSA clarified its no-pay policy and stated that, on a case-by-case basis,
the DDS may request an exemption to recruit or retain medical providers.9 To obtain
an exemption, the DDS should work with the SSA Regional Office to determine the
payments for missed CE appointments. After an agreement is reached, the Regional
Office should submit the request, along with supporting documentation, to the Office of
Disability Determinations for consideration.

7
    Formerly SSA’s Office of Disability.
8
 Department of Health and Human Services, Office of Inspector General, Payments Under the Disability
Determination Program for Medical Appointments Made by Claimants of Disability Insurance and
Supplemental Security Income Benefits (A-01-87-02004), December 1987.
9
    SSA, Office of Disability, DDS Administrators' Letter No. 536, April 25, 2000.


Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)                                      4
In December 2002, AK-DDS requested an exemption to the no-pay policy for missed
CE appointments. Nevertheless, we found no evidence to indicate that (1) the SSA
Regional Office had submitted a request for exemption to its no-pay policy or (2) the
Office of Disability Determinations had approved such an exemption for AK-DDS. For
FYs 2001 through 2003, we identified 778 payments representing $120,920 for missed
CE appointments. The following table provides a breakdown of these payments.

                           Number of             Missed CE             Unallowable
         FY                Claimants            Appointments             Costs
        2001                  108                   119                  $15,306
        2002                  364                   426                   65,850
        2003                  199                   233                   39,764
        Total                 671                   778                 $120,920

We encourage SSA to determine whether it was necessary for AK-DDS to pay medical
providers for missed CE appointments. If it was not necessary to pay these fees, SSA
should instruct AK-DVR to refund $120,920 in unallowable costs. Otherwise, SSA
should obtain approval from the Office of Disability Determinations to pay fees for
missed CE appointments.

EXPENDITURES FOR MEDICAID PROGRAM
AK-DVR incorrectly charged expenditures for the Medicaid program to SSA’s programs.
This occurred because AK-DVR did not properly allocate all other nonpersonnel costs
to the benefiting programs. Since these costs benefited the Medicaid program, they
should not have been charged to SSA’s programs. As a result, SSA reimbursed
AK-DVR for $56,172 in unallowable costs for FYs 2001 through 2003.

SSA’s procedures authorize the Agency to provide States with funding for all
expenditures, direct or indirect, necessary to make disability determinations. Generally,
any expenditures incurred for SSA’s disability determination process are deemed
essential and may be charged to the Agency.10

AK-DDS performs a number of disability determinations for the Medicaid program.
Under a reimbursable services agreement (RSA), AK-DVR allocates costs incurred in
making disability determinations from AK-DDS to the Medicaid program. Our review
of RSAs disclosed that personnel, medical, and indirect costs were properly allocated
to the Medicaid program. However, except for applicant travel costs, all other
nonpersonnel costs were not allocated to the Medicaid program.




10
     POMS, section DI 39506.001.


Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)                          5
For FYs 2001 through 2003, AK-DDS performed 18,404 disability determinations, of
which 17,232 were SSA disability claims and 1,172 were Medicaid claims. During this
period, AK-DVR charged $851,643 in all other nonpersonnel costs (excluding applicant
travel costs) to SSA’s programs. As depicted in the table below, we determined that
$56,172 of all other nonpersonnel costs benefited the Medicaid program. Therefore,
AK-DVR should refund these costs to SSA.

                          Medicaid      Percentage of    Nonpersonnel      Unallowable
         FY                Claims        Total Claims       Costs11          Costs
        2001                 381           7.368%          $386,641         $28,488
        2002                 377           5.631%           251,123          14,141
        2003                 414           6.332%           213,879          13,543
        Total              1,172                           $851,643         $56,172

INCORRECT FISCAL YEAR PAYMENTS
AK-DDS charged payments to the incorrect FYs, although the costs were otherwise
acceptable for reimbursement by SSA. Because of clerical errors, AK-DVR and
AK-DDS did not ensure the purchase orders for goods and services were properly billed
to the correct FY. As a result, AK-DVR incorrectly reported $21,821 in administrative
costs for FYs 2001 through 2003.

Federal law states that “The balance of an appropriation or fund limited for obligation to
a definite period is available only for expenditures properly incurred during that
period . . . The appropriation or fund is not available for expenditure for a period beyond
the period otherwise authorized by law.”12

AK-DDS generates purchase orders to establish valid obligations for goods and
services ordered. For FYs 2001 through 2003, we reviewed 150 invoices for medical
costs (50 items from each FY) and 150 invoices for all other nonpersonnel costs
(50 items from each FY). Of this amount, we found that AK-DDS had charged
20 invoices (6.7 percent) to the incorrect FY, resulting in $21,821 of misreported
costs. The following table provides a breakdown of these payments.

                      Medical Costs         Nonpersonnel Costs      Unallowable Costs
       FY           Number     Amount       Number    Amount       Number      Amount
      2001            3        $1,240          6      $16,083         9       $17,323
      2002            5         3,001          4         1,089        9          4,090
      2003            0             0          2           408        2            408
      Total           8        $4,241         12      $17,580        20       $21,821



11
     Less applicant travel costs.
12
     31 U.S.C. § 1502(a).


Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)                            6
Improper reporting of funds between FYs prevents SSA from accurately monitoring
the status of AK-DDS’ expenditures and unexpended appropriations. Therefore, for
FYs 2001 through 2003, AK-DVR should review the expenditures claimed on the
Form SSA-4513 and reclassify expenditures as appropriate. AK-DVR should also
implement procedures to prevent future occurrences of similar problems.




Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)                     7
                                           Conclusions and
                                          Recommendations
Our review of administrative costs disclosed that AK-DDS could have saved up to
about $1.3 million in medical costs for FYs 2001 through 2003 had a fee schedule been
established. In addition, we found that AK-DDS claimed $177,092 of unallowable costs
for FYs 2001 through 2003. This occurred because AK-DDS improperly paid for missed
CEs and Medicaid expenditures that did not benefit SSA’s programs. We also found
that AK-DDS charged $21,821 in medical and all other nonpersonnel costs to the
incorrect FY.

We recommend that SSA:

1. Ensure AK-DDS establishes a medical fee schedule and submits a copy to the SSA
   Regional Office.

2. Work with AK-DDS to evaluate the reasonableness of its fee schedule and ensure
   the payment rates are adequate to obtain medical or other services necessary for
   disability determinations.

3. Determine whether it was necessary for AK-DDS to pay medical providers for
   missed CE appointments. If such expenditures were not necessary, instruct
   AK-DVR to refund $120,920 in unallowable costs for FYs 2001 through 2003.
   Otherwise, obtain approval from the Office of Disability Determinations to pay
   fees for missed CE appointments.

4. Instruct AK-DVR to refund $56,172 in unallowable costs for disability determinations
   performed on behalf of the Medicaid program during FYs 2001 through 2003.

5. Instruct AK-DVR to (1) implement procedures to ensure that expenditures are
   reported in the proper FY and (2) review the Form SSA-4513 for FYs 2001 through
   2003 and reclassify expenditures as appropriate.

SSA COMMENTS
SSA agreed with four of our five recommendations. SSA disagreed with our
recommendation to recover $56,172 in unallowable costs for disability determinations
performed on behalf of the Medicaid program. SSA believed it generally benefited
from the reimbursement arrangement and should not request a refund because
(1) under the RSA, AK-DVR used a $75,000 salary when the actual average adjudicator
salary was $64,000 and (2) the non-Federal workload did not require the services of
a full-time adjudicator. SSA believed these factors would offset any potential finding
of unallowable costs. Finally, SSA noted that since AK-DVR only showed personnel


Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)                        8
costs on its quarterly reports, it would instruct AK-DVR to provide a breakdown of the
Medicaid costs to reflect personnel, indirect, medical, and other costs. See Appendix D
for the text of SSA’s comments.

STATE AGENCY COMMENTS
AK-DOLWD agreed with four of our five recommendations. AK-DOLWD disagreed
with our recommendation to recover $56,172 in unallowable costs for disability
determinations performed on behalf of the Medicaid program. AK-DOLWD stated
that it should have used an average salary of $64,000 for an adjudicator rather than
the highest salary of $75,000. In addition, AK-DOLWD stated that it had incorrectly
included nonpersonnel costs with the Medicaid billings for personnel costs and did not
charge the full amount of State and departmental indirect costs during our audit period.
See Appendix E for the text of AK-DOLWD’s comments.

OIG RESPONSE
The RSA, as applied during our audit period, stated the annual salary for one
adjudicator would be allocated to the Medicaid program. During FYs 2001 through
2003, AK-DVR charged Medicaid costs based on an estimated salary of $75,000 per
year. In addition, we found no evidence that nonpersonnel costs were included with
personnel costs or had otherwise been charged to the Medicaid program. Finally, the
information supporting AK-DOLWD’s comment that it did not charge the full amount of
State and departmental indirect costs was not made available to us during our audit.
Therefore, we believe SSA should evaluate the sufficiency of this information to
determine whether it should request a refund of any unallowable costs for the Medicaid
program. We are pleased that SSA is taking corrective action to ensure AK-DVR
provides a breakdown of all Medicaid costs in the future.




Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)                             9
                                           Appendices




Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)
                                                                        Appendix A

Acronyms
Act                      Social Security Act

AK-DDS                   Alaska Disability Determination Services

AK-DOLWD                 Alaska Department of Labor and Workforce Development

AK-DVR                   Alaska Division of Vocational Rehabilitation

CE                       Consultative Examination

C.F.R.                   Code of Federal Regulations

DDS                      Disability Determination Services

Form SSA-4513            State Agency Report of Obligations for SSA Disability Programs

FY                       Fiscal Year

POMS                     Program Operations Manual System

RSA                      Reimbursable Services Agreement

SSA                      Social Security Administration

Treasury                 Department of the Treasury

U.S.C.                   United States Code




Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)
                                                                      Appendix B

Scope and Sampling Methodology
SCOPE
We reviewed the administrative costs reported by the Alaska Disability Determination
Services (AK-DDS) on its Form SSA-4513, State Agency Report of Obligations for SSA
Disability Programs, for Fiscal Years (FY) 2001 through 2003. For the items tested,
we reviewed AK-DDS’ compliance with applicable laws and regulations, as well as the
Social Security Administration’s (SSA) policies and procedures, over the allowability of
administrative costs and draw down of Federal funds.

To accomplish our objectives, we:

•   Reviewed Office of Management and Budget Circular A-87, Code of Federal
    Regulations, United States Code, SSA’s Program Operations Manual System, and
    AK-DDS’ Indirect Cost Proposal;

•   Reviewed AK-DDS’ policies and procedures related to personnel, medical, indirect,
    and all other nonpersonnel costs;

•   Interviewed employees from SSA, AK-DDS, Alaska Division of Vocational
    Rehabilitation (AK-DVR), and Alaska Department of Labor and Workforce
    Development (AK-DOLWD);

•   Reconciled the amount of Federal funds drawn for support of program operations to
    the allowable expenditures;

•   Examined the administrative costs incurred and claimed by AK-DDS for personnel,
    medical, indirect, and all other nonpersonnel costs during FYs 2001 through 2003;

•   Selected a random sample of personnel, medical, and all other nonpersonnel costs;
    and

•   Reconciled the accounting records to the administrative costs reported by AK-DDS
    on its Form SSA-4513 for FYs 2001 through 2003.

We determined the electronic data used in our audit were sufficiently reliable to achieve
our audit objectives. We assessed the reliability of the electronic data by reconciling
them with the costs claimed on the Form SSA-4513. We also conducted detailed audit
testing on selected data elements from the electronic files.

We performed audit work at AK-DDS in Anchorage, Alaska; AK-DVR and AK-DOLWD
in Juneau, Alaska; and SSA Regional Office in Seattle, Washington. Field work was


Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)                        B-1
conducted between July and November 2004. We conducted our audit in accordance
with generally accepted government auditing standards.

SAMPLING METHODOLOGY
Our sampling methodology included the four general areas of costs as reported on
Form SSA-4513: (1) personnel, (2) medical, (3) indirect, and (4) all other nonpersonnel
costs. We obtained data extracts from AK-DOLWD for FYs 2001 through 2003 to use in
statistical sampling. After selecting and reviewing the randomly selected samples, we
did not identify errors that we felt warranted statistical projection.

Personnel Costs

We reviewed 31 personnel transactions from 1 pay period in FY 2003. In addition, we
reviewed the transactions from the same pay period for the seven medical consultants
hired by AK-DDS. We tested payroll records to ensure AK-DDS accurately paid its
employees and adequately supported these payments.

Medical Costs

We reviewed 150 medical cost items (50 items from each FY) using a stratified random
sample. We distributed the sample items between medical evidence of records and
consultative examinations based on the proportional distribution of the total medical
costs for each year.

Indirect Costs

AK-DDS indirect costs were computed by applying a Federally approved rate to
a cost base. This methodology was approved by the Department of Labor, which
is the Federal agency responsible for approving indirect costs for AK-DOLWD. We
reviewed the indirect cost calculations for FYs 2001 through 2003 to ensure the correct
rate was applied.

All Other Nonpersonnel Costs

We reviewed 150 all other nonpersonnel costs items (50 items from each FY) using
a stratified random sample. Before selecting our sample, we sorted the transactions
into the following categories: (1) transportation, (2) per diem, (3) conference/training,
(4) applicant travel, (5) other travel costs, (6) professional services, (7) communication,
(8) service agreements, (9) postal charges, (10) freight and delivery, (11) advertising,
(12) supplies, (13) office equipment, (14) machinery and equipment, (15) information
technology equipment and software, (16) other current expenses, and (17) other
building expenses. We then distributed the 50 sample items between these categories
based on the proportional distribution of all other nonpersonnel costs for each year.
We also judgmentally selected two transactions for rental/lease costs for each year.




Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)                           B-2
                                                                                 Appendix C

Alaska Disability Determination Services
Reported and Allowed Costs
                Table 1 – Administrative Costs for Fiscal Year (FY) 2001

                                     Reported                  Audit                 Allowable
             Category                  Costs               Adjustments1                Costs
    Personnel                       $1,537,101                       $0             $1,537,101
    Medical                          1,290,558                (15,306)               1,275,252
    Indirect                           369,726                        0                369,726
    All Other Nonpersonnel             779,980                (28,488)                 751,492
    Total                           $3,977,365              ($43,794)               $3,933,571

                        Table 2 – Administrative Costs for FY 2002

                                     Reported                  Audit                 Allowable
             Category                  Costs               Adjustments1                Costs
    Personnel                       $1,760,764                       $0             $1,760,764
    Medical                          1,486,634                (65,850)               1,420,784
    Indirect                           412,457                        0                412,457
    All Other Nonpersonnel             709,321                (14,141)                 695,180
    Total                           $4,369,176              ($79,991)               $4,289,185

                        Table 3 – Administrative Costs for FY 2003

                                     Reported                  Audit                 Allowable
             Category                  Costs               Adjustments1                Costs
    Personnel                       $1,696,120                       $0             $1,696,120
    Medical                          1,061,384                (39,764)               1,021,620
    Indirect                           376,401                        0                376,401
    All Other Nonpersonnel             469,205                (13,543)                 455,662
    Total                           $3,603,110              ($53,307)               $3,549,803




1
  Total audit adjustments included $120,920 of fees for missed consultative examinations and $56,172 of
expenditures for the Medicaid program. This amount did not include $21,821 of medical and all other
nonpersonnel costs that had been charged to the incorrect FY, but were otherwise acceptable for
reimbursement by SSA.


Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)
                                                                 Appendix D

   SSA Comments




Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)
                                    SOCIAL SECURITY
MEMORANDUM

Date:       May 27, 2005                                                 Refer To: S2DXG3:D3

To:        Inspector General                                             Seattle Regional Office
           Office of the Inspector General

From:      Regional Commissioner
           Seattle Region

Subject: Administrative Costs Claimed by the Alaska Disability Determination Services
         (A-09-05-15025) - REPLY

This responds to the draft audit report of administrative costs claimed by the Alaska Disability
Determination Services (AK-DDS) (A-09-05-15025). The Office of the Inspector General (OIG) had
five recommendations for the Alaska DDS. Each recommendation, with our response, is shown below:

1. Ensure AK-DDS establishes a medical fee schedule and submits a copy to the SSA Regional Office.

      We agree with this recommendation and we are working with the AK-DDS to establish a medical
      fee schedule. The expected completion date is August 30, 2005.

2. Work with AK-DDS to evaluate the reasonableness of its fee schedule and ensure the payment rates
   are adequate to obtain medical or other services necessary for disability determinations.

      We agree with this recommendation and, as stated above, we are working with the AK-DDS to
      establish and evaluate a medical fee schedule to ensure payment rates are adequate.

3. Determine whether it was necessary for AK-DDS to pay medical providers for missed CE
   appointments. If such expenditures were not necessary, instruct AK-DVR to refund $120,920 in
   unallowable costs for FYs 2001 through 2003. Otherwise, obtain approval from the Office of
   Disability Determinations to pay fees for missed CE appointments.

      We agree with this recommendation and we are working with the AK-DDS and the Office of
      Disability, Division of Field Disability Operations, Resource Management Branch to obtain
      approval for the DDS’s CE reimbursement guidelines and procedures for missed CE appointments.
      The expected completion date for this action is June 30, 2005.




Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)                                     D-1
      4. Instruct AK Division of Vocational Rehabilitation (DVR) to refund $56,172 in unallowable costs
         for disability determinations performed on behalf of the Medicaid program during FYs 2001
         through 2003.

          We disagree with this recommendation. To cover the costs of a non-federal workload processed by
          the AK-DDS, the AK-DVR was charged $75,000 plus costs for obtaining medical evidence and
          applicant travel. The $75,000 charge represented the estimated annual salary for one DDS
          adjudicator. While there appears to be a discrepancy, we believe that further analysis of
          information not considered during the audit would show that SSA generally benefited from the
          reimbursement arrangement for the years in question and should not request a refund. There are
          two primary reasons for this belief. First, the average salary for an adjudicator during fiscal years
          2001 through 2003 was $64,000, but the reimbursement formula assumed a $75,000 salary.
          Second, the non-federal workload did not necessitate the services of a full-time adjudicator and
          consequently SSA received additional state-funded adjudicator resources to process federal claims.
          We believe that these factors, which are both favorable to SSA, would offset any potential finding
          of unallowable costs.

          In the past, the AK-DDS only showed personnel costs on their quarterly reports. More recently, the
          AK-DVR has changed the reimbursement formula to include reimbursement for a percentage of
          general expenses. We will instruct the AK-DDS to provide a breakdown of the Medicaid costs to
          reflect Personnel Costs, Indirect Costs, Medical Costs and Other Costs on Form SSA-4513.

      5. Instruct AK-DVR to (1) implement procedures to ensure that expenditures are reported in the
         proper FY and (2) review the Form SSA-4513 for FYs 2001 through 2003 and reclassify
         expenditures as appropriate.

          We agree with this recommendation and will instruct the AK-DVR to implement procedures to
          report expenditures in the proper FY and review Form SSA-4513 for fiscal years 2001 through
          2003 and reclassify expenditures as appropriate.

If you have any questions regarding this audit, please contact, Shelly Beach, Program Expert, in the Center
for Disability at shelly.beach@ssa.gov , by telephone at 206-615-2137, or Robert Iseminger, Disability
Program Administrator at robert.iseminger@ssa.gov , by telephone at 206-615-2680.


                                                /s/ Carl L. Rabun


cc:     Sandra Kelley, DDS Administrator
        Office of Disability Programs, RMB




      Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)                                     D-2
                                                                 Appendix E

   State Agency Comments




Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)
Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)   E-1
Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)   E-2
Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)   E-3
Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)   E-4
Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)   E-5
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments

In addition to those named above:

   Wilfred P.K. Wong, Auditor

   Stephen Flaherty, Auditor

   Brennan Kraje, Statistician

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-05-15025.




Administrative Costs Claimed by the Alaska DDS (A-09-05-15025)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit

OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations

OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General

OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                               Office of Executive Operations

OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
